CERTIFICATE OF WORD COUNT
No.TBD
Karen Bishop,
Petitioners),
v.
Palm Beach County,
Respondent(s).

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Karen Bishop Petition
for Writ of Certiorari contains 4492 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 3 3.1 (d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas ^DeDeus
February 14, 2020

SCP Tracking: Bishop-650 N. Penrod Road, #533-Cover White

